                                  September 24, 1999


Mr. Victor Capoccia

President

Center for Addictive Behaviors

Health and Recovery Services, Incorporated

111 Middleton Road

Danvers, Massachusetts 01923


Dear Mr. Capoccia:


Enclosed is a copy of our final report presenting the results of our audit of the costs

claimed by the Center for Addictive Behaviors, Incorporated (CAB) on the Social

Security Administration’s Contract Number (CN) 600-95-22671 (A-13-98-51041). The

objective of this audit was to determine if costs claimed by CAB for CN 600-95-22671

were allowable, allocable, and reasonable in accordance with applicable Federal

regulations and the terms of the contract.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to comment, please provide your comments within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Frederick C. Nordhoff, Director, Financial Management Audits and Performance

Monitoring, at (410) 966-6676.


                                                Sincerely,




                                                Daniel R. Devlin
                                                Acting Assistant Inspector General
                                                 for Audit

Enclosure

cc:

James M. Fornataro, Associate Commissioner for Acquisition and Grants

           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



    COSTS CLAIMED BY THE
    CENTER FOR ADDICTIVE
      BEHAVIORS, INC. ON
     THE SOCIAL SECURITY
  ADMINISTRATION’S CONTRACT
      NUMBER 600-95-22671
   September 1999   A-13-98-51041




AUDIT REPORT

                      E X E C U TI V E S U M M AR Y


OBJECTIVE

The objective of this audit was to determine if costs claimed by the Center for Addictive
Behaviors, Incorporated (CAB) for Contract Number (CN) 600-95-22671 were
allowable, allocable, and reasonable in accordance with applicable Federal regulations
and the terms of the contract. This report also provides the Contracting Officer with cost
information to determine the final value of the contract and to use in closing out the
contract.

BACKGROUND

The Social Security Administration’s (SSA) Office of Acquisition and Grants (OAG)
requested an audit of costs incurred by CAB (CN 600-95-22671) for Referral and
Monitoring Agency (RMA) services to refer, assess, and monitor drug addicts and
alcoholics (DA&A) receiving Supplemental Security Income (SSI) benefits.1 The
contracted service period was from September 25, 1995, through February 14, 1997.
The costs claimed under CN 600-95-22671 are defined in terms of the contract and the
Office of Management and Budget (OMB) Circular A-122. The circular provides criteria
to establish allowability, allocability, and reasonableness of costs claimed by nonprofit
entities for Federal cost reimbursement contracts. 2

We limited our audit to the review of costs incurred by CAB for CN 600-95-22671. We
did not assess, and do not express an opinion of the overall acceptability of CAB’s
internal controls or accounting systems. We performed our field work at CAB located in
Danvers, Massachusetts, and at OAG at SSA Headquarters in Baltimore, Maryland,
from October 1998 through June 1999.

RESULTS OF REVIEW

The CAB claimed a total of $1,398,552 for CN 600-95-22671. Except for $63,865 in
questioned costs and $14,300 in allowable costs not claimed, for a net questioned cost
of $49,565, we determined the claimed costs were allowable, allocable, and reasonable
in accordance with applicable Federal regulations and the terms of the contract.


1
    SSI provides income maintenance payments to low-income individuals who are aged, blind, or
disabled. DA&As were determined disabled if they met income and other eligibility requirements, but this
category was eliminated in March 1996 by Public Law 104-121. However, prior to the elimination of the
DA&A category, each State had a RMA contractor who referred, assessed, and monitored both title II and
title XVI DA&A recipients.
2
    OMB Circular A-122, Cost Principles for Nonprofit Organizations.


                                                     i
•	 INAPPROPRIATELY CLAIMED CAB COSTS ARE QUESTIONED

   Close-out Costs

   Indirect Costs - due to audit adjustments

•	 ALLOWABLE CAB COSTS NOT CLAIMED

   Supply Costs (Maintenance and Repair)

   Office Space Costs

   Indirect Costs – due to classification and indirect rate errors

RECOMMENDATION

We recommend that SSA recover the net questioned costs of $49,565 from CAB on
CN 600-95-22671.

CAB’s COMMENTS

In its response, CAB concurs with our findings and recommendations, except for our
questioning of the $11,833 of closeout lease costs. (See Appendix D for the full text of
CAB’s comments.)

OFFICE OF THE INSPECTOR GENERAL (OIG) RESPONSE

We considered the comments provided by CAB. However, we do not agree with and
have not made adjustments for the closeout lease costs. (See the explanatory notes in
Appendix B for detailed OIG responses to CAB’s comments.)




                                             ii
                        T AB L E O F C O N T E N T S


                                                                                                                Page

EXECUTIVE SUMMARY ......................................................................................... i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

     INAPPROPRIATELY CLAIMED CAB COSTS ARE QUESTIONED ................ 3

     �    Close-Out Costs ......................................................................................... 4
     �    Indirect Costs Due to Audit Adjustments..................................................... 4

     ALLOWABLE CAB COSTS NOT CLAIMED .................................................... 4

     �    Supply Costs (Maintenance and Repair) .................................................... 5
     �    Office Space Costs ..................................................................................... 5
     �    Indirect Costs Due to Classification and Indirect Rate Errors ..................... 5

RECOMMENDATION ............................................................................................. 6


APPENDICES
APPENDIX A - Criteria for Claimed Costs
APPENDIX B - Schedules and Explanatory Notes for Claimed and Recommended
             Costs on Contract Number 600-95-22671
APPENDIX C - Center for Addictive Behaviors’ Comments
APPENDIX D - Major Contributors to This Report
APPENDIX E - SSA Organizational Chart
                          I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to determine if costs claimed by the Center for Addictive
Behaviors, Incorporated (CAB) for Contract Number (CN) 600-95-22671 were
allowable, allocable, and reasonable in accordance with applicable Federal regulations
and the terms of the contract. This report also provides the Contracting Officer with cost
information to determine the final value of the contract and to use in closing out the
contract.

BACKGROUND

The Social Security Administration’s (SSA) Office of Acquisition and Grants (OAG)
requested an audit of costs incurred by CAB under its contract (CN 600-95-22671) for
Referral and Monitoring Agency (RMA) services to refer, assess, and monitor drug
addicts and alcoholics receiving Supplemental Security Income benefits. The
contracted service period was from September 25, 1995, through February 14, 1997.

The costs claimed under CN 600-95-22671 are defined in terms of the contract.
Additionally, the Office of Management and Budget (OMB) Circular A-122 provides
criteria that establish allowability, allocability, and reasonableness of costs claimed by
nonprofit entities for Federal cost reimbursement contracts. (See Appendix A for a
detailed explanation of the circular’s criteria.)

SCOPE AND METHODOLOGY

We limited our audit to the review of costs incurred by CAB for CN 600-95-22671. We
did not assess, and do not express an opinion of the overall acceptability of CAB’s
internal controls or accounting systems.

We reviewed, on a limited basis, the contractor’s internal controls. In doing so, we
assessed control risk as “high” and expanded our substantive tests, which our audit
reflects and which provides a reasonable basis for our conclusions. We also examined,
on a test basis, evidence supporting the amounts claimed; inspected disclosures in the
data; reviewed records; assessed the accounting principles used and significant
estimates made by the contractor; and evaluated the overall data and records
presentation.

To evaluate claimed costs, we referenced OMB Circular A-122 and the terms and
conditions of the contract. Costs that did not meet the requirements of the circular and
contract were questioned for SSA’s use in determining the final value of the contract


                                             1

and its close-out. Also, we recommend that SSA allow costs which meet the
requirements of the circular and the contract but were not previously billed to SSA.

We performed our field work at CAB located in Danvers, Massachusetts, and at OAG at
SSA Headquarters in Baltimore, Maryland, from October 1998 through June 1999. Our
audit was conducted in accordance with generally accepted government auditing
standards.




                                            2

                     R E S U L T S O F R E V I E W


Except for the questioned and unclaimed costs discussed below, we determined the
costs claimed by CAB on CN 600-95-22671 were allowable, allocable, and reasonable
in accordance with applicable Federal regulations and the terms of the contract.

We question whether $63,865 of the costs claimed by CAB are allowable, allocable, and
reasonable. Also, we found that $14,300 in unclaimed costs are allowable. The net
questioned costs totaled $49,565. (See Table 1.) 3

                Table 1 – Schedule of Questioned and Unclaimed Costs

                           Cost Item                                 Costs
             Questioned Costs:
                                  Close-out Costs                  $ 55,730
                               Indirect Costs                          8,135
             Total Questioned Costs                                 $ 63,865


             Unclaimed Costs:
                                           Supplies                 ($1,668)
                                      Office Space                   (2,249)
                               Indirect Costs                       (10,383)
             Total Unclaimed Costs                                 ($14,300)

             Net Questioned Costs                                   $49,565



INAPPROPRIATELY CLAIMED CAB COSTS ARE QUESTIONED

We question $63,865 of the CAB claimed costs because the costs are not in
accordance with the terms of the contract and/or applicable Federal regulations. Details
of the questioned costs follow.




3
  The amounts in Table 1 and throughout this report are rounded to the dollar. Percentages are rounded
to the second decimal place. Any differences are due to rounding.


                                                  3

Close-out Costs

We question $55,730 of the claimed close-out costs. These costs are questioned under
section A-2 (g) of OMB Circular A-122 which states that costs be adequately
documented, and section B-48 (d) which states that all reasonable efforts should be
made to terminate, assign, settle, or otherwise reduce the cost of an unexpired lease.
Also, Modification Number 2 of the contract states that the period of performance is
extended to February 14, 1997. We question the estimated lease close-out costs based
on the fact that the contract ended February 1997 and the contractor billed SSA until
June 1998. Also, CAB billed SSA in excess of the actual costs paid for close-out
unemployment and vested benefit costs.

•	 We question $11,833 of the estimated lease close-out costs claimed by CAB for the
   office space from January 1997 to June 1998. This represents the difference of
   what was billed on the final voucher and what we determined as allowable. On
   September 25, 1996, OAG informed CAB that CN 600-95-22671 was being
   terminated. CAB should have given its landlord a 6-month written notice to vacate
   the unneeded RMA space as allowed by the lease. However, CAB waited until
   December 23, 1997 to notify the landlord. Therefore, only the costs of $5,880 for
   January to March 1997, 6 months after notification of contract termination, are
   allowable for the lease close-out period.

•	 We question $34,077 in “unemployment” costs per section A-2 (g) of OMB Circular
   A-122. This represents the difference of what was billed on the final voucher and
   what was actually incurred. CAB estimated and billed SSA $56,428 for
   unemployment costs. Actual costs incurred by CAB were $18,538 for Fiscal
   Year (FY) 1997 and $3,813 for FY 1998.

•	 We question $9,821 in vested benefit costs per section A-2 (g) of OMB
   Circular A-122. This represents the difference of what was billed on the final
   voucher and what was actually incurred by CAB. The costs of $12,220 billed by
   CAB were estimates. The actual costs incurred were $2,399.

Indirect Costs Due to Audit Adjustments

We question net indirect costs of $8,135 pertaining to the questioned close-out costs of
$55,730 and CAB’s unclaimed costs for supplies and office space.

ALLOWABLE CAB COSTS NOT CLAIMED

CAB did not claim $14,300 of allowable costs. These costs are allowable under OMB
Circular A-122, section A-2 (a) stating costs “be reasonable for the performance of the
award” and section A-4 (a) stating costs are allocable if incurred specifically for the
award. Details of the allowable costs follow.




                                            4

Supply Costs (Maintenance and Repair)

An additional $1,668 is allowable for software maintenance per sections A-2 (a) and
A-4 (a) of OMB Circular A-122. CAB incurred the supply costs, but never billed them to
SSA.

Office Space Costs

An additional $2,249 are allowable for lease costs per sections A-2 (a) and A-4 (a) of
OMB Circular A-122. CAB miscalculated the allocation of the monthly lease costs for
RMA services.

Indirect Costs Due to a Classification and Indirect Rate Errors

An additional $10,383 are allowable for indirect costs per sections A-2 (a) and A-4 (a) of
OMB Circular A-122. Our review of indirect costs disclosed allowable costs of $9,783
due to incorrect equipment allocation that resulted in a lower indirect cost allocation
base used. The indirect cost allocation base is total direct costs minus the equipment
costs. CAB made a classification error by incorrectly charging the costs for software
consultants to the equipment account. In addition, CAB underbilled SSA $600 for the
month of September 1995 because the contractor applied the indirect rate of
12.1 percent instead of the indirect rate of 20.8 percent to its cost allocation base for
September 1995.




                                            5

                    R E C O M M E N D AT I O N 


RECOMMENDATION

We recommend that SSA recover the net questioned costs of $49,565 from CAB on
CN 600-95-22671.

CAB’s COMMENTS

In its response, CAB concurs with our findings and recommendations, except for our
questioning of the $11,833 of closeout lease costs. (See Appendix C for the full text of
CAB’s comments.)

OFFICE OF THE INSPECTOR GENERAL (OIG) RESPONSE

We considered the comments provided by CAB. However, we do not agree with and
have not made adjustments for the lease close-out costs. (See the explanatory notes in
Appendix B for detailed OIG responses to CAB’s comments.)




                                            6

APPENDICES

                                                                              APPENDIX A



     C R I T E R I A F O R C L AI M E D C O S T S


The Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations, dated August 29, 1997:

   •	 Section A-2 Allowability
      For costs to be allowable, they must be reasonable for the performance of the
      award, conform to any limitations set forth in the award, be in accordance with
      generally accepted accounting principles and be adequately documented.

   •	 Section A-3 Reasonable
      In order to be reasonable, the costs shall be recognized as ordinary and
      necessary for the performance of the award.

   •	 Section A-4 Allocable
      Costs are allocable if incurred specifically for the award and are treated
      consistently with other costs incurred for the same purpose in like circumstances.

   •	 Section B-48 (d) Termination costs – Rental costs
      In order for the unexpired lease costs to be allowable, all reasonable efforts must
      be made to terminate, assign, settle, or otherwise reduce the cost of such lease.

Contract Number 600-95-22671, Modification Number Two:

   •	 Section F, Article F-7, Period of Performance
      The period of performance is extended to February 14, 1997.

Lease Agreement between the Center for Addictive Behaviors, Incorporated (CAB) and
the Lessor dated April 20, 1994:

   •	 Section 3 (b), Right to Consolidate
      Upon 6-month written notice to the lessor, the lessee has the right to consolidate
      into a smaller area.
                                                                                        APPENDIX B


    SCHEDULES AND EXPLANATORY NOTES FOR

     CLAIMED AND RECOMMENDED COSTS ON

        CONTRACT NUMBER 600-95-22671


We question $63,865 of the costs claimed by the Center for Addictive Behaviors,
Incorporated (CAB), while $14,300 of allowable costs were not claimed. The net
questioned costs totaled $49,565 on Contract Number (CN) 600-95-22671. (See
Table 1 – Schedule of Questioned and Unclaimed Costs on page 3 of the report.) This
appendix provides the following details:

    •	 Tables 1 and 21 depicting claimed, recommended, and questioned costs by CAB;
       and

    •	 Explanatory notes detailing the auditor’s conclusions; contractor’s basis of
       claimed costs; and auditor’s evaluation methodology used to determine the
       questioned and/or recommended costs.

                   Table 1 - Costs Claimed by CAB on CN 600-95-22671

         Cost Element             Claimed        Recommended          Questioned          Note
    Direct Labor                  $ 416,124             $416,124            $0
    Fringe Benefits                  67,952               67,952              0
    Consultants                    210,150               210,150              0
    Travel                           11,576               11,576              0
    Supplies                       108,710               110,378          (1,668)        Note 3
    Equipment                      224,257               224,257              0
    Telephone                       15,806               15,806               0
    Office Space                    27,153               29,402           (2,249)        Note 4
    Utilities                         6,739               6,739               0
    Advertising                       5,000               5,000               0
    Close-out Costs               110,576              54,846             55,730         Note 1
    Subtotal: Direct Costs       $1,204,043        $1,152,230            $51,813




1
  The amounts in Tables 1 and 2 are rounded to the dollar. Percentages are rounded to the second
decimal place. Any differences are due to rounding.


                                                 B-1

         Cost Element          Claimed     Recommended           Questioned    Note
   Indirect Costs:
   Due to Audit Adjustments                                        $8,135      Note 2
   Due to Classification &
   Indirect Rate Errors                                           (10,383)     Note 5
   Indirect Costs Total        $ 194,509      $ 196,757           $ (2,248)
   TOTAL COSTS                $1,398,552     $1,348,987           $ 49,565

Explanatory Notes:

1. Questioned Costs – Close-Out Costs

We question $55,730 of the $110,576 close-out costs claimed by CAB. These costs are
questioned under section A-2 (g) of the Office of Management and Budget (OMB)
Circular A-122 which states that costs be adequately documented, and section B-48 (d)
which states that all reasonable efforts should be made to terminate, assign, settle, or
otherwise reduce the cost of an unexpired lease. Also, we referred to Modification
Number 2 of the contract which states that the period of performance is extended to
February 14, 1997. CAB billed the Social Security Administration (SSA) in excess of
the actual costs paid to close-out unemployment and vested benefit costs. Also, we
question the estimated lease close-out costs based on the fact that the contract ended
February 1997, and the contractor billed SSA for this contract until June 1998.

             Table 2 – Close-Out Costs Claimed by CAB on CN 600-95-22671

      Cost Element            Claimed        Recommended          Questioned    Note
Management Information

System Preparation      $        3,500            $     3,500

Packing & Shipping
              5,547                  5,547
Lease Close-Out
                17,713                  5,880       $11,833     Note 1.a
Utilities
                       3,240                  3,240
Staff Time
                     11,729                 11,729
Telephone
                         200                    200
Unemployment
                   56,428                 22,351         34,077    Note 1.b
Vested Benefits
                12,220                  2,399          9,821    Note 1.c
TOTAL
Close-Out Costs               $110,576                $54,846       $55,730




                                           B-2

a. Lease Close-Out Costs

  (1) Summary of Conclusions:

     We question $11,833 of the estimated lease close-out costs claimed by

     CAB for the office space from January 1997 to June 1998. On

     September 25, 1996, the Office of Acquisitions and Grants informed CAB that

     CN 600-95-22671 was being terminated. CAB should have given its landlord

     a 6-month written notice to vacate the unneeded Referral and Monitoring

     Agency (RMA) space. However, CAB waited until December 23, 1997 to

     notify the landlord. Therefore, only the costs of $5,880 for January to

     March 1997 are allowed for the lease close-out period.


     Our review of the lease close-out costs disclosed unallowable lease costs

     based on the fact: (1) the contract ended February 1997 per Modification 2 of

     the contract, and (2) the costs are unreasonable under section B-48 (d) of

     OMB Circular A-122 which states that all reasonable efforts should be made

     to terminate, assign, settle, or otherwise reduce the cost of unexpired lease.


  (2) Basis of Claimed Costs:

     CAB claimed lease close-out costs for the period after the contract ended in
     February 1997. CAB estimated and billed SSA $17,713 for leased space
     from January 1997 to June 1998. CAB indicated that the space was rented
     for the sole purpose of housing the RMA staff. Also, CAB stated that its
     landlord would not allow early termination of the lease agreement.
     Furthermore, CAB indicated that it explored the possibility of subleasing the
     space, but could not do so because any occupant would need to walk through
     the rest of CAB’s office space; thereby, breaching clients’ confidentiality.

  (3) Audit Evaluation:

     We question the lease close-out costs per Modification Number 2 of the
     contract that stated the contract period of performance ended February 1997.
     We also question the lease costs after March 31, 1997 as being
     unreasonable for the performance of the contract. Section B-48 (d) of OMB
     Circular A-122 states that “Rental costs under unexpired leases are generally
     allowable where clearly shown to have been reasonably necessary for the
     performance of the terminated award. . . .” It further states, “. . . the
     organization makes all reasonable efforts to terminate, assign, settle, or
     otherwise reduce the cost of such lease.” The cost of alterations of the lease
     property necessary for the performance of the award may also be included.




                                     B-3

  On April 20, 1994, CAB contracted with the landlord to lease 14,207 square

  feet of space to treat their clients. On September 26, 1995, CAB obtained an

  additional 2,357 square foot area for the RMA services under

  CN 600-95-22671.


  Section 3 (b), page 3 of the lease allows CAB, upon a 6-month written notice,

  to consolidate the leased space into an area of not less than 10,457 square

  feet by vacating an area of approximately 3,750 square feet. On

  December 23, 1997, CAB provided the landlord with written notice to

  consolidate by vacating approximately 3,750 square feet. CAB further stated,

  “The loss of our Social Security Contract in 1997 resulted in more space than

  the ongoing programs require.”


  Two contract modifications to terminate CN 600-95-22671 between CAB and

  SSA were signed to change the completion date of the original contract. The

  first contract modification was signed on September 25, 1996 to change the

  date of completion for the work statement to December 31, 1996 from the

  original date of September 24, 1998 and to reflect a completion date for all

  close-out activities of January 31, 1997. The second modification signed on

  February 3, 1997 extended the close-out activities completion date to

  February 14, 1997.


  We applied a 6-month vacancy notice from October 1, 1996 to

  March 31, 1997. The first three rental payments of $1,960 per month from

  October 1 to December 31, 1996 are for the completion of the contract work

  statement; the last three rental payments from January 1 to March 31, 1997

  are for the close-out period. CAB waited until December 23, 1997 to provide

  written notice to the landlord concerning the space consolidation.


  We believe CAB could have vacated 2,357 square feet (which is less than the

  3,750 square feet requested) according to the lease agreement and with

  some alteration to the leased area. The lease close-out costs of $5,880

  ($1,960 per month times 3 months) are allowable for the close-out period.

  CAB should have given the landlord a 6- month vacancy notice immediately

  after the Modification Number 1 was signed to reduce the unneeded space

  because the RMA services were no longer needed after December 31, 1996.

  Instead, CAB waited over a year to send the written vacancy notice to the

  landlord. Therefore, our questioned costs of $11,833 represent the difference

  of what was billed on the final voucher and what is considered allowable.


(4) CAB’s Comments:

  CAB did not agree with our questioning of the lease costs. According to CAB,
  it notified the Landlord upon notice of the contract termination and that the
  landlord would not allow the early termination of the lease space.




                                  B-4

   (5) Office of the Inspector General Response:

      We disagree with CAB. Cab waited until December 1997 to inform the
      landlord of the need to terminate the lease. CAB should have notified its
      landlord on September 25, 1996, when SSA notified them that the contract
      was terminated.

b. Unemployment Costs

   (1) Summary of Conclusions:

      We question $34,077 of the unemployment costs claimed by CAB. The costs
      billed are in excess of the actual costs paid.

   (2) Basis of Costs:

      The unemployment costs billed SSA were estimates for the final billing. CAB
      billed SSA for $56,428 when the actual unemployment costs were $18,538 for
      Fiscal Year (FY) 1997 and $3,813 for FY 1998.

   (3) Audit Evaluation:

      Actual unemployment costs are allowable. We question the difference of
      what was billed on the final voucher and what was actually incurred.
      Section A-2 (g) of OMB Circular A-122 states that costs be adequately
      documented.

   (4) CAB’s Comments:

      CAB concurred with our recommendation.

c. Vested Benefit Costs

   (1) Summary of Conclusions:

      We question $9,821 of the vested benefit costs claimed by CAB. The costs
      billed are in excess of the actual costs paid.

   (2) Basis of Costs:

      The vested benefit costs billed SSA were estimates for the final billing. CAB
      billed SSA for $12,220 when the actual vested benefit costs were $2,399.




                                      B-5

      (3) Audit Evaluation:

         Actual vested benefit costs are allowable. We question the difference of what
         was billed on the final voucher and what was actually incurred. Section A-2
         (g) of OMB Circular A-122 states that costs be adequately documented.

      (4) CAB’s Comments:

         CAB concurred with our recommendation.

2. Questioned Cost – Indirect Costs Due to Audit Adjustments

   a. 	 Summary of Conclusions

      We question indirect costs of $8,135 pertaining to the questioned close-out costs
      and CAB’s unclaimed costs for supplies and office space.

   b. Basis of Claimed Costs

      CAB claimed indirect costs using indirect rates of 12.1 percent for

      September 1995, 20.8 percent for October 1, 1995 through June 30, 1996, and

      21.7 percent for July 1, 1996 through December 31, 1997. These rates are

      applied to the indirect costs allocation base. The allocation base is total direct

      costs minus equipment costs.


   c. Audit Evaluation

      We applied the applicable indirect rates to the adjusted indirect costs allocation
      base to our questioned close-out costs and CAB’s unclaimed costs for supplies
      and office space.

   d.	 CAB’s Comments:

      CAB concurred with our recommendation.

3. Allowable Costs Not Claimed – Supplies

   a. Summary of Conclusions

      An additional $1,668 is allowed for software maintenance for which CAB did not
      bill SSA.




                                           B-6

   b. Basis of Claimed Costs

      The CAB June 1996 supplies account of the general ledger shows payments
      totaling $5,815 for software maintenance and repair. CAB mistakenly billed SSA
      $4,148 or $1,668 less.

   c. Audit Evaluation

      We determined that the additional software maintenance costs of $1,668 are
      allowable and allocable per sections A-2 (a) and A-4 (a) of OMB Circular A-122.
      Since the total of $5,815 incurred in June 1996 for software maintenance and
      repairs is allowable and allocable per sections A-2 (a) and A-4 (a) of OMB
      Circular A-122, the difference of $1,668 is also allowable and allocable.

   d. CAB’s Comments:

      CAB concurred with our recommendation.

4. Allowable Costs Not Claimed – Office Space (Lease Cost)

   a. Summary of Conclusion

      An additional $2,249 is allowable for lease costs. CAB incorrectly computed the
      monthly lease costs for the RMA services.

   b. Basis of Claimed Costs

      CAB did not allocate all of the leased spaces to CN 600-95-22671. CAB

      allocated these costs based on percent of space used. CAB billed SSA $163 for

      September 1995, $650 for October 1995, and $1,881 per month for

      November 1995 through December 1996 for lease cost. We computed $280 for

      September 1995, $1,681 for October 1995 and $1,960 per month for

      November 1995 through December 1996 for lease costs.


   c. Audit Evaluation

      We determined that the additional lease costs of $2,249 are allowable and
      allocable per sections A-2 (a) and A-4 (a) of OMB Circular A-122. Our
      computation of the lease costs is prorated based on CAB occupying 2,357
      square feet or 14.2 percent for the SSA RMA contract out of the total leased
      space of 16,564 square feet.

   d. CAB’s Comments:

      CAB concurred with our recommendation.




                                         B-7

5. 	 Allowable Costs Not Claimed – Indirect Costs Due to a Classification and
     Indirect Rate Errors

   a. Summary of Conclusions

      A total of $10,383 of unclaimed indirect costs is allowable. Our review of indirect
      costs disclosed allowable costs of $9,783 due to incorrect equipment allocation
      that resulted in a lower indirect cost allocation base. The indirect costs allocation
      base for which indirect rates are applied is calculated by subtracting the
      equipment costs from the total direct costs. CAB made a classification error by
      incorrectly charging the costs for software consultants to the equipment account.
      In addition, CAB did not bill SSA $600 of allowable indirect costs for the month of
      September 1995 because the contractor applied the indirect rate of 12.1 percent
      instead of the appropriate indirect rate of 20.8 percent to its direct cost base.

   b. Basis of Claimed Costs

      CAB did not bill SSA $9,783 for indirect costs because it incorrectly deducted

      $271,291, instead of $224,257, of equipment costs from the direct costs to arrive

      at its indirect cost allocation base. The difference of $47,035 was for software

      consultants. Expenditures for software consultants were originally classified

      incorrectly and charged to the equipment account. This classification error was

      later corrected, and the consultant costs were later transferred to the

      maintenance and repair (software) sub-account of Supplies. However, CAB did

      not correct the indirect costs and apply the indirect rate of 20.8 percent to the

      corrected indirect cost allocation base.


      In addition, CAB underbilled SSA $600 for the month of September 1995

      because the contractor did not use the correct indirect rate. CAB billed SSA

      $834 instead of $1,434 for the indirect costs because it used the indirect rate of

      12.1 percent. The indirect rate for the period of July 1, 1995 through

      June 30, 1996 was 20.8 percent.


   c. Audit Evaluation

      To compute the allowable indirect costs of $9,783, we deducted the equipment
      costs of $224,257, instead of $271,291, from the total direct costs to arrive at the
      corrected indirect cost allocation base. We then applied the appropriate indirect
      rate of 20.8 percent to the corrected indirect costs allocation base.

      We also calculated the additional indirect costs of $600 for the billing month of
      September 1995. The additional indirect costs represent the difference between
      the contractor’s claimed indirect costs of $834 and our recommended indirect
      costs of $1,434. The contractor had used the indirect rate of 12.1 percent,




                                           B-8

  instead of the indirect rate of 20.8 percent. The indirect cost amount of $1,434
  was calculated by applying the appropriate indirect rate of 20.8 percent to the
  September 1995 indirect cost allocation base of $6,894.

d. CAB’s Comments:

  CAB concurred with our recommendation.




                                      B-9

                             APPENDIX C



CENTER FOR ADDICTIVE BEHAVIORS’

          COMMENTS

                                                                               APPENDIX D



 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Frederick C. Nordhoff, Director, Financial Management Audits and Performance
Monitoring Division

Phillip Rogofsky, Acting Audit Manager

Suzanne Valett, Senior Auditor

Steven Sachs, Senior Auditor

Stephen Ondrish, Senior Auditor

Cheryl Robinson, Writer-Editor, Technical Services


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-98-51041.
                                     APPENDIX E



S S A O R G AN I Z AT I O N AL C H AR T

